DOEF 1325.8
(08-93)
United States Goverment                                                              Department of Energy


Memorandum
        DATE:   December 11, 2007                            Audit Report Number: OAS-L-08-03
   REPLY TO
    ATTN OF:    IG-34 (A07GT010)

    SUBJECT:    Report on "The Department of Energy's Implementation of Revised OMB Circular
                No. A-123"
          TO:   Chief Financial Officer, CF-1


                INTRODUCTION AND OBJECTIVE

                The Office of Management and Budget's (OMB) revised Circular No. A-123
                (A-123) requires Federal agencies to assess, document and test their internal
                controls over financial reporting and prepare an annual assurance statement on the
                operating effectiveness of those controls. The Department of Energy
                (Department), with approval from OMB, elected to use a three year phased
                approach to implement A-123. In Fiscal Year (FY) 2006, the first phase of its
                implementation, the Department focused on the highest risk activities with the
                potential for the greatest impact on the financial statement audit.

                Our FY 2006. review of the first phase of implementation concluded that the
                Department's evaluation of internal controls over financial reporting was carried
                out in a reasonable manner and generally conformed to requirements established
                by OMB. We noted, however, that certain risk assessments were not prepared in
                accordance with guidance established by the Department's Office of Chief
                Financial Officer (OCFO) and that supporting documentation describing certain
                controls and the results of testing had not been prepared or was not readily
                available. We provided suggestions designed to strengthen these critical areas of
                the Department's A-123 process. Accordingly, the OCFO clarified guidance and
                provided additional training on the preparation of risk assessments and supporting
                documentation. The National Nuclear Security Administration and Energy
                Efficiency and Renewable Energy Program also took action to correct the minor
                issues we identified during our FY 2006 review. Our FY 2007 review examined
                whether the second phase of the Department's A-123 implementation conformed
                to the requirements established in A-123.

                CONCLUSION AND OBSERVATIONS

                The Department made substantial progress during the second phase of its
                implementation of A-123. We concluded that the assessment, documentation and
                testing of internal controls over financial reporting as of June 30, 2007,
                fundamentally conformed to the requirements established by OMB. The
Department properly reported the limited scope of its internal control assessment
and qualified its assurance statement on the effectiveness of its controls.

Our review disclosed that the OCFO recently added a substantial number of
processes to its internal control Assessment and Reporting Tool, including
processes associated with the reporting of environmental liabilities. Given the
significant deficiency in the accounting for environmental liabilities discovered
during from the FY 2007 Audit of the Department's Consolidated Financial
Statement, the additional assessment and testing of these processes that the OCFO
plans to perform is important and should help resolve this weakness. The OCFO
has concluded that these processes are high risk, and current plans include
completing the documentation, evaluation and testing of them in FY 2008.

No formal recommendations are being made in this report and a formal response
is not required.

We appreciate the cooperation of your staff and the various Departmental
elements that provided information or assistance.




                                     Rickey    . Hass
                                     Assistant Inspector General
                                       for Environment, Science, and Corporate Audits
                                     Office of Inspector General

Attachment

cc:    Chief of Staff
       Deputy Secretary
       Under Secretary of Energy
       Under Secretary for Science
       Administrator, National Nuclear Security Administration




                                        2
                                                                                Attachment


SCOPE AND METHODOLOGY

We examined the Department of Energy's (Department) implementation of the revised
Office of Management and Budget's Circular No. A-123 (A-123), Appendix A, regarding
evaluation of and reporting on internal controls. The evaluation was performed between
July and November 2007.

We conducted interviews of officials in the Headquarters Office of Chief Financial
Officer who were responsible for implementation and monitoring of the revised
requirements; undertook site visits to the Oak Ridge National Laboratory, the
Environmental Management Consolidated Business Center (EMCBC), the Idaho
National Laboratory, and the Savannah River Site; conducted work at the Office of
Environmental Management while at EMCBC; and reviewed internal control, test, and
remediation documentation. We assessed the FY 2007 Agency Financial Report as it
relates to A-123 to determine whether the results of site and program office evaluations
were accurately reported. Also, we performed work to determine whether the
Department developed corrective action plans for significant issues identified during its
FY 2007 reporting process.

Our limited review was made in accordance with generally accepted Government
auditing standards and included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy our objective. Accordingly, we assessed
internal controls related to the implementation process. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our evaluation. We did not rely on computer-processed data to
accomplish our audit objective.
